No. 19-414
In the

Supreme Court of the United States

MEDTRONIC, INC.,
Petitioner,
v.
MARK A. BARRY,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

BRIEF IN OPPOSITION
Mitchell G. Stockwell
D. Clay Holloway
Dario A. Machleidt
Courtney S. Dabbiere
Kilpatrick Townsend
& Stockton LLP
1100 Peachtree Street, NE,
Suite 2800
Atlanta, Georgia 30309
(404) 815-6500

A dam H. Charnes
Counsel of Record
Kilpatrick Townsend
& Stockton LLP
2001 Ross Avenue,
Suite 4400
Dallas, Texas 75201
(214) 922-7100
acharnes@kilpatricktownsend.com

Counsel for Respondent
November 26, 2019
292139

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The Court in Pfaff v. Wells Elecs., Inc., created a
two-part test for whether a patent is barred because the
invention was sold or publicly used too early. 525 U.S. 55,
67 (1998). The fact-finder is asked whether the challenger
demonstrated (1) the invention was sold or publicly used
and (2) the invention was ready for patenting. Id. Under
the ready for patenting prong, the challenger can show
reduction to practice or that the inventor had prepared
drawings or descriptions sufficient to enable a person of
ordinary skill in the art to practice the invention. Id.
To show reduction to practice, the challenger must
show the inventor knew that his invention worked for its
intended purpose. This has not, nor should it be, a purely
objective question. In Corona Cord Tire Co. v. Dovan
Chem. Corp., the Court emphasized the priority inventor
knew the invention functioned as intended. 276 U.S. 358,
382 (1928).
Similarly, the question of whether an invention was
sold or publicly used under Pfaff ’s first prong involves
determining whether the activity was experimental.
The Court in Pfaff expressly confirmed that an activity
conducted with a bona fide intent to experiment would
not be a barring activity. 525 U.S. at 64. The bona fide
intent of an inventor in the question of experimentation
has been the standard inquiry since the Court’s decision
in City of Elizabeth v. American National Pavement Co.,
97 U.S. 127 (1877). Whether a sale or public use occurred
will also take into consideration whether the inventor had
a bona fide intent to perfect his invention.
The questions presented are thus:
1. Whether the record supports the finding that
Dr. Barry’s invention was not ready for patenting until

ii
January 2004 because Dr. Barry needed to test his novel
method on the three most common curve types of scoliosis
and determine that the method would achieve treatment of
those conditions, including, for example, that the implants
would remain in their proper position as observed at
clinically appropriate follow-up.
2. Whether 35 U.S.C. Section 282, which specifies
that the burden of proof on showing invalidity lies with
the challenging party, should be ignored in place of an
entirely separate question as to whether an inventor was
experimenting despite Pfaff ’s express recognition that
experimental use was part of the on-sale question.

iii
STATEMENT OF RELATED CASES
• Barry v. Medtronic, Inc., 1:14-cv-00194-RC, U.S.
District Court for the Eastern District of Texas.
Judgment entered on May 16, 2017.
• Barry v. Medtronic, Inc., 2017-2463, U.S. Court of
Appeals for the Federal Circuit. Judgment entered
on January 24, 2019.
• Medtronic, Inc. v. Barry, 2017-1169, 2017-1170,
U.S. Court of Appeals for the Federal Circuit.
Judgment entered on June 11, 2018.
• Medtronic, Inc. v. Barry, IPR 2015-00780, IPR
2015-00783, United States Patent Trial and
Appeal Board. Final written decision entered
September 7, 2016.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
STATEMENT OF RELATED CASES  . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

The Factual Record . . . . . . . . . . . . . . . . . . . . . . . . 4
A. Dr. Barry’s Development of the Method
Claimed in the ‘358 Patent  . . . . . . . . . . . . . . 4
B. Evidence of Dr. Barry’s Experimentation  . 7

II. The District Court Proceedings . . . . . . . . . . . . . . 8
REASONS TO DENY THE PETITION . . . . . . . . . . . 13
I.

Petitioner Waived Its Current Challenges. . . . . 13

II. This Case Does Not Warrant Supreme
Court Review. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
A. The Federal Circuit Properly Applied
the “Ready for Patenting” Standard Set
Forth in Pfaff ’s to the On-Sale/Public
Use Inquiry.  . . . . . . . . . . . . . . . . . . . . . . . . . 16

v
Table of Contents
Page
1.

The Federal Circuit Properly
Considered Evidence That Dr.
Barry Was Working to Determine
His Invention Worked for Its
Intended Purpose. . . . . . . . . . . . . . . . . . 17
i.

The “reduction to practice”
analysis includes consideration
of the invention’s “intended
purpose.”  . . . . . . . . . . . . . . . . . . . .  17

ii. The record demonstrates Dr.
Barry was working to determine
if his invention works for its
“intended purpose.” . . . . . . . . . . . . 21
2. The Federal Circuit Properly
Recognized that Facts Supporting
“Ready for Patenting” Are Also
R ele va nt t o “ Ex p e r i ment a l
Use.”  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
B. The Statutory Burden of Persuasion
on Invalidity Based on Sale or Public
Use, Which the Court Has Confirmed
Includes the Experimental Use Inquiry,
Must Control.  . . . . . . . . . . . . . . . . . . . . . . . . 30
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

vi
TABLE OF CITED AUTHORITIES
Page
CASES:
Anderson v. City of Bessemer City, N.C.,
470 U.S. 564 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . 11, 25
Atlanta Attachment Co. v. Leggett & Platt, Inc.,
516 F.3d 1351 (Fed. Cir. 2008) . . . . . . . . . . . . . . .  27, 31
Austin Mach. Co. v.
Buckeye Traction Ditcher Co.,
13 F. 2d 697 (6th Cir. 1926) . . . . . . . . . . . . . . . . . . . . . 32
City of Elizabeth v.
American National Pavement Co.,
97 U.S. 127 (1877) . . . . . . . . . . . . . . . . . . . . . . . . passim
Clock Springs LP v. Wrapmaster, Inc.,
560 F.3d 1317 (Fed. Cir. 2009) . . . . . . . . . . . . . . . . . . 28
Corona Cord Tire Co. v. Dovan Chemical Corp.,
276 U.S. 358 (1928)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
E. Rotorcraft Corp. v. United States,
384 F.2d 429 (Ct. Cl. 1967) . . . . . . . . . . . . . . . . . . . . . 19
Elmore v. Schmitt,
278 F.2d 510 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
EZ Dock v. Schafer Sys., Inc.,
276 F.3d 1347 (Fed. Cir. 2002) . . . . . . . . . . . . 20, 27, 28

vii
Cited Authorities
Page
Gaiser v. Linder,
253 F.2d 433 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Honeywell Int’l Inc. v.
Universal Avionics Sys. Corp.,
488 F.3d 982 (Fed. Cir. 2007) . . . . . . . . . . . . . . . . . . . 22
i4i P’ship Ltd. v. Microsoft Corp.,
598 F.3d 831 (Fed. Cir. 2010), aff’d,
564 U.S. 91 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
In re Dybel,
524 F.2d 1393 (C.C.P.A. 1975)  . . . . . . . . . . . . . . . 33, 34
Javierre v. Cent. Altagracia, Inc.,
217 U.S. 502 (1910) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
KCJ Corp. v. Kinetic Concepts, Inc.,
223 F.3d 1351 (Fed. Cir. 2000) . . . . . . . . . . . . . . . . . . 23
Manville Sales Corp. v. Paramount Sys., Inc.,
917 F.2d 544 (Fed. Cir. 1990) . . . . . . . . . . . . . . . . . . . 22
McLane Co. v. EEOC,
137 S. Ct. 1159 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . . 15
MedImmune, Inc. v. Genentech, Inc.,
549 U.S. 118 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Microsoft Corp. v. i4i Ltd. P’ship,
564 U.S. 91 (2011)  . . . . . . . . . . . . . . . . . . . . . . . 3, 14, 33

viii
Cited Authorities
Page
New Railhead Mfg. LLC v. Vermeer Mfg Co.,
298 F.3d 1290 (Fed. Cir. 2002) . . . . . . . . . . . . . . . . . . 27
NTP, Inc. v. Research In Motion, Ltd.,
418 F.3d 1282 (Fed. Cir. 2005) . . . . . . . . . . . . . . . . . . 14
Palmer v. Hoffman,
318 U.S. 109 (1943)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Pennwalt Corp. v. Akzona Inc.,
740 F.2d 1573 (Fed. Cir. 1984) . . . . . . . . . . . . . . . . . . 28
Pfaff v. Wells Electronics., Inc.,
525 U.S. 55 (1998)  . . . . . . . . . . . . . . . . . . . . . . . . passim
Polara Eng’g Inc. v. Campbell Co.,
894 F.3d 1339 (Fed. Cir. 2018) . . . . . . . . . . . . . . . . . . 22
RCA Corp. v. Data Gen. Corp.,
887 F.2d 1056 (Fed. Cir. 1989) . . . . . . . . . . . . . . .  27-28
Robert Bosch, LLC v.
Pylon Manufacturing Corp.,
719 F.3d 1305 (Fed. Cir. 2013) . . . . . . . . . . . . . . . . . . 15
Sinko Tool & Mfg. Co. v.
Automatic Devices Corp.,
157 F. 2d 974 (2d Cir. 1946) . . . . . . . . . . . . . . . . . . . . .19
Smith & Griggs Manufacturing Co. v. Sprague,
123 U.S. 249 (1887) . . . . . . . . . . . . . . . . . . . . . . . . 31, 33

ix
Cited Authorities
Page
Springfield, Mass. v. Kibbe,
480 U.S. 257 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
St. Mary’s Honor Center v. Hicks,
509 U.S. 499 (1993) . . . . . . . . . . . . . . . . . . . . . . . .  34-35
Tex. Dep’t of Cmty Affairs v. Burdine,
450 U.S. 248 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
TP Laboratories, Inc. v.
Professional Positioners, Inc.,
724 F.2d 965 (Fed. Cir.), cert. denied,
469 U.S. 826 (1984) . . . . . . . . . . . . . . . . . . . . . . . passim
United States v. First City Nat’l Bank of Hous.,
386 U.S. 361 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
United States v. Olano,
507 U.S. 725 (1993)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Wood v. Milyard,
566 U.S. 463 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
STATUTES AND OTHER AUTHORITIES:
35 U.S.C. § 102(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 3, 31
35 U.S.C. § 282 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 16, 32

x
Cited Authorities
Page
9C Charles Alan Wright & Arthur R. Miller, Federal
Practice and Procedure: § 2558 (3d ed. 2008) . . . . . 14
Bona Fide, Black’s Law Dictionary (11th ed. 2019) . . . 18
Patent Act of 1836, ch. 357, 5 Stat. 117 (repealed 1870) . . 28
William C. Rocklidge & Stephen C. Jensen, Common
Sense, Simplicity and Experimental Use
Negation of the Public Use and On Sale Bars to
Patentability, 29 J. Marshall L. Rev. 1 (1995)  . . . . 33

1
INTRODUCTION
The Petition should be denied. The Petition seeks
reexamination of the Federal Circuit’s affirmance that
Dr. Barry’s patent is not invalid under 35 U.S.C. § 102(b).
The jury found, and the Federal Circuit agreed, that Dr.
Barry’s invention was not “ready for patenting” under
Pfaff v. Wells Electronics., Inc., 525 U.S. 55 (1998), more
than one year before filing his patent application. That
finding alone disposes of Petitioner’s validity challenge
because Petitioner needed to prove the invention was
both (1) on-sale or publicly used more than a year for
applying for the patent and (2) ready for patenting. Id. at
67-68. Because the Federal Circuit affirmed Dr. Barry’s
invention was not “ready for patenting,” and its affirmance
correctly applied settled law to the unique facts of this
case, nothing here justifies a grant of certiorari.
Petitioner, however, asserts that when considering
“ready for patenting,” the jury, through its instructions,
improperly considered evidence of whether the inventor
was working to determine if his invention worked for its
intended purpose. But Petitioner never before argued
this was improper. It never objected to the instruction
on ready for patenting nor did it argue to the Federal
Circuit anything other than a critique of the factfinder’s
determination of the weight of the evidence. Petitioner
also, and again for the first time, challenges the underlying
burden of persuasion for the question of experimental
use. Yet Petitioner never objected to the relevant jury
instructions; nor did it argue to the Federal Circuit for
a change in the law. Petitioner’s arguments are waived.
Petitioner’s arguments also ignore or contradict
well-settled precedent. Pfaff held “ready for patenting”

2
can be shown in at least two ways: (1) proof of reduction
to practice or (2) proof that the inventor had drawings or
other descriptions that would enable a person of skill to
practice the invention. Id. By the time the Court decided
Pfaff, it had long been the law—going back to City of
Elizabeth v. American National Pavement Co., 97 U.S.
127 (1877)—that whether an invention has been reduced
to practice or was the subject of experimentation depends
on whether the inventor was engaged in a bona fide effort
to perfect or determine if his invention worked for its
intended purpose.
This is not, and has never been interpreted as, a wholly
objective inquiry. Rather, the invocation of “bona fide
effort” means determining whether the inventor knew his
invention worked as he intended will involve consideration
of the inventor’s objectives, methods, and perceived
results. These questions depend heavily on judging the
entirety of record evidence—the quintessential province
of the factfinder. Thus, the Federal Circuit’s “ready
for patenting” analysis correctly considered evidence
of whether Dr. Barry was working to determine if his
invention worked as intended.
As for Petitioner’s effort to restructure the burden of
persuasion, the Court need not consider this because the
question of experimental use is part of Pfaff ’s on-sale or
public use prong, not the ready for patenting prong. 525
U.S. at 67-68. While underlying facts may apply to both, a
point Pfaff also acknowledged, they are separate inquiries.
As such, and as the Federal Circuit noted, Chief Judge
Prost’s dissent opining that patentees ought to carry the
burden of persuasion on the experimental use issue would
not affect the outcome of this case, as Dr. Barry’s invention
was not ready for patenting.

3
Separately, the Court established that experimental
use by the inventor means an alleged activity is neither
a sale nor a public use under the first prong of Pfaff, and
thus evidence of experimental use is considered for this
prong. Petitioner, however, seeks to make experimental
use an entirely separate inquiry—one which would shift
the challenger’s ultimate burden of persuasion to the
patent owner. Petitioner’s proposed burden-shift ignores
the statute and this Court’s controlling interpretation of
it. Congress declared that a patent is presumed valid and
that “[t]he burden of establishing invalidity . . . shall rest on
the party asserting such invalidity.” 35 U.S.C. § 282. This
Court has declared the statute means the challenger’s
burden of persuasion “is constant and never changes and
is to convince the court of invalidity by clear evidence.”
Microsoft Corp. v. i4i Ltd. P’ship, 564 U.S. 91, 97 (2011).
As such, while Petitioner suggests the Federal Circuit
has strayed from the Pfaff decision, it is Petitioner that
suggests a fundamental shift diverging from the statute
and the Court’s precedent.
Ultimately, the Petition is simply a re-write of Chief
Judge Prost’s dissent. Petitioner ignores, however, that
the dissent garnered no support from the full Federal
Circuit1 and was dismissed by the majority, which noted
after reviewing the record that “we see nothing in the
dissent’s proposed changes that would alter our § 102(b)
result—at least on the sufficient ground that Medtronic
failed to establish readiness for patenting.” Pet. App.
12a-13a & n.3. Indeed, the facts of this case fully support
the Federal Circuit’s application of “ready for patenting”
1. The Federal Circuit denied rehearing and rehearing en
banc without requiring Dr. Barry to respond.

4
as set forth in Pfaff. The Federal Circuit’s decision
analyzed the law in detail, and is entirely consistent with
the case law applying the on-sale and public-use statutory
bar. Pet. App. 11a-20a.
STATEMENT
I.

The Factual Record

Dr. Barry invented methods and systems for threedimensional correction of spinal deformities, such as
scoliosis, using linked derotation instruments. C.A.J.A.
328. Scoliosis is abnormal cur vature of the spine
presenting as a side-to-side curve. C.A.J.A. 1773-75.
In more severe cases, the individual vertebrae rotate
around the spinal cord resulting in a rib hump. Id. Before
Dr. Barry’s invention, surgeons treated these conditions
by either rotating individual vertebra one at a time or
rotating multiple vertebrae using unlinked instruments.
C.A.J.A. 1156-61. These procedures had drawbacks,
such as requiring multiple assistants and producing
inconsistent results. C.A.J.A. 1156-61. Dissatisfied with
the current tools and procedures, Dr. Barry invented
improved methods and systems making treatment of
scoliosis safer for the patient and easier for the surgeon.
C.A.J.A. 1169-71.
A.

Dr. Barr y’s Development of the Method
Claimed in the ‘358 Patent

In 2002, Dr. Barry had been exposed to segmental
derotation—manipulating individual vertebrae in a
one-at-a-time manner. C.A.J.A. 1161-63. This required
implanting screws into pedicles of the spine and placing a

5
lever onto the screw head to move the vertebra. C.A.J.A.
1156. Dr. Barry was unsatisfied with that technique and
by March 2003 began to envision ways to link multiple
levers attached to pedicle screws along the length of the
spine. C.A.J.A. 1169-71.
At that time, however, surgical tools useable for
the technique Dr. Barry was considering did not exist.
C.A.J.A. 1171. He considered modifying tools offered
by two device companies. C.A.J.A. 1176-77. Those tools
were unsatisfactory and Dr. Barry then considered tools
offered by a third device company. C.A.J.A. 1177-79. After
working with a machine shop for months (C.A.J.A. 118290), Dr. Barry finally had tools that might work for his
envisioned linked derotation technique. C.A.J.A. 1190-91.
Correcting spinal deformities is a medical treatment
that differs across patients. C.A.J.A. 1192-93. The
procedures are invasive, requiring implantation of many
screws and rods while subjecting the spine and implants
to considerable force. C.A.J.A. 1194. Medical treatment is
not simply what happens during or at the end of a surgical
procedure; rather, it is treatment of a human patient.
C.A.J.A. 1191. Scoliosis, specifically, is a disorder of a
large range of curve types and severities and because of
the potentially wide range of applications, Dr. Barry aimed
to ensure his inventive technique of derotating multiple,
linked vertebrae would work in such real-world varieties
of treatments. C.A.J.A. 1192-93.
Dr. Barry’s claimed invention addressed “[a] method
for aligning vertebrae in the amelioration of aberrant
spinal column deviation conditions . . . .” C.A.J.A. 330. To
account for the nature of treating the multiple “deviation

6
conditions” found across multiple patients with different
deformities, follow-up patient evaluations were necessary
to ensure successful treatment of the various aberrant
spinal conditions encountered amongst diverse patients.
C.A.J.A. 1159-60. Follow-up at various intervals was
necessary to see that correction had taken hold and the
implants remained where they should. C.A.J.A. 1195-96.
Specifically, follow-up is necessary because surgeons
“want to make sure that this patient recovers well, there
is[sic] no complications, that, you know, all these new
forces and corrections that we’re putting on the spine are
holding, you know, no issues of implants shifting or moving
out of position and dislodging . . . .” C.A.J.A. 1194.
Such follow-up is not only common in practice, but the
Scoliosis Research Society, the preeminent organization
and journal society in the art, “will not even let you
publish a paper that has less than two years of follow-up
. . . .” C.A.J.A. 2899-2901. For this invention, a minimum
of three months of follow-up was believed necessary to
ensure the claimed invention worked as intended and the
surgical results were holding. C.A.J.A. 1196.
Dr. Barry conducted three surgeries using his
inventive method in August and October of 2003. C.A.J.A.
1190-97. These procedures were scoliosis treatments and
Dr. Barry was compensated for such treatment, not the
performance of his novel technique. C.A.J.A. 1430. Each
procedure was done in the confidence of the operating room
(C.A.J.A. 2905), the intricacies unknown to patients under
anesthesia, and involved a team of professionals under
implied or contractual confidentiality understandings.
C.A.J.A. 1303-13, 2388-89.

7
The first surgery in August 2003 did not, by itself,
demonstrate the method would work for a range of
treatments of various deformities because it was simply
one surgery treating one of many curve types. C.A.J.A.
1190-93. Two other procedures, another in August and
one in October, presented opportunities to see if the new
method would work as conceived on different patients
with different spinal deformities. C.A.J.A. 1193-95. It
was after the three month follow-up to the October 2003
procedure, in January 2004, when Dr. Barry observed
his novel technique resulted in safe, effective, and lasting
corrections addressing the multiple aberrant spinal
deviation conditions found in a diverse patient population,
such that Dr. Barry was convinced he successfully treated
the “three most common[] curve types of scoliosis.”
C.A.J.A. 1195-96.
B. Evidence of Dr. Barry’s Experimentation
The record includes numerous other facts showing
the three treatments that began in August 2003 through
January 2004 were experimental.
First, invoices demonstrated the work done in
modifying the tools ultimately used in surgical methods
as claimed. C.A.J.A. 10278-80. Dr. Barry’s device sales
representative testified about helping Dr. Barry in having
serial modifications made to tools while Dr. Barry worked
on his invention. C.A.J.A. 1697-1706.
Second, Dr. Barry had surgical notes generated as part
of work with his then-exclusive licensee of the technology
covered by his patents to aid further development of his
concepts. C.A.J.A. 1183-96, 10281-92. These notes indicate
the procedures were successful. C.A.J.A. 10285.

8
Third, Dr. Barry’s anesthesiologist, Dr. Stephanie
Davidson, testified she knew Dr. Barry was working
on an inventive scoliosis technique in the 2003 time
period. C.A.J.A. 1733-35, 1739. Dr. Barry’s device sales
representative confirmed the evolving work done on the
tools. C.A.J.A. 1697-1707. Similarly, Dr. Yvonne Barry,
one of Dr. Barry’s surgical assistants, testified that,
while the concept of derotation was not experimental, the
equipment Dr. Barry was using to improve derotation was
experimental. C.A.J.A. 2854-55. Moreover, the record
contained extensive testimony that operating rooms are,
as one would expect, places of confidence. C.A.J.A. 290405, 1730.
Fourth, and perhaps most telling, was that Dr. Barry
published to his peers the results of his experiments—“the
evolution of his technique.” C.A.J.A. 5282 (“This technique
evolved with a design of linked multiple derotation levers
mounted on a cluster of fixed head screws . . . .”); C.A.J.A.
1197-98. After submitting the abstract on February 1,
2004, two weeks after the three-month follow-up to the
third surgery, it was accepted for presentation at a July
2004 conference. C.A.J.A. 1202. Dr. Barry presented his
results at that meeting (C.A.J.A. 10001-32) where he was
complemented on his study by Dr. Lenke, the meeting’s
chair and Petitioner’s alleged prior inventor. C.A.J.A.
1226-28, 2595.
II. The District Court Proceedings
Petitioner did not object to instructions on the on-sale
bar and prior public use. For example, as to the on-sale
bar, the jury was instructed:

9
On-Sale Bar:
A patent claim is invalid if, more than one
year before the filing date of the patent, an
embodiment of the claimed invention was both:
1. ready for patenting; and also
2. the subject of a commercial sale or offer for
sale in the United States.
C.A.J.A. 161. The jury was instructed that
An invention is “ready for patenting” either when:
1. it is reduced to practice; or
2. the inventor has prepared drawings or
other descriptions of the invention that
were sufficiently specific to enable a person
of ordinary skill in the art to practice the
invention.
In either case, the claimed invention is ready
for patenting when there is reason to believe it
would work for its intended purpose.
C.A.J.A. 159. The jury was further instructed that
An invention is “reduced to practice” either when:
1. The invention has been constructed, used, or
tested sufficiently to show that it will work
for its intended purpose; or

10
2. The inventor files a patent application with
the Patent and Trademark Office.
C.A.J.A. 158.
As to Dr, Barry’s purported “public use” of his
experimental method in an operating room, the jury was
instructed that a claim is invalid if, more than a year
before the patent application, “the claimed invention was
both: 1. ready for patenting; and also 2. accessible to the
public.” Id. The jury was instructed on what “accessible to
the public” meant and specifically on considering “whether
or not a use is an ‘experimental use’”:
Patent law recognizes that an inventor must be
given the opportunity to develop his invention
through experimentation. Activities are
experimental if they are a legitimate effort
to test the claimed features of an invention
or to determine if the invention will work for
its intended purpose. So long as the primary
purpose is experimentation, it does not matter
that use of the invention was accessible to the
public or that the inventor incidentally derived
benefit from the use, for example a nominal
surgical fee.
C.A.J.A. 159-60. The jury received multiple factors
to consider regarding whether a use or sale was
experimental (C.A.J.A. 160-61), and was told that, as
to Petitioner’s claim of prior invention, Dr. Barry would
need corroborated evidence of reduction to practice and
diligence between conception and reduction to practice.
C.A.J.A. 165-66. As the reduction to practice inquiry

11
is the same between on-sale bar, public use, and prior
invention, the jury was instructed to determine whether
the corroboratory evidence was reliable. Id. Petitioner did
not object to these aspects of the instructions. 2 C.A.J.A.
2974-76.
On these instructions, the jury considered the
evidence summarized above and weighed it under the clear
and convincing standard against Petitioner’s evidence and
arguments. 3 Petitioner asserted Dr. Barry conceded he
could tell he had achieved some correction during the 2003
procedures. C.A.J.A. 1369-70 (“The surgical correction of
the rotated vertebrae back to the midline, yeah, happens
with that maneuver”); C.A.J.A. 1426 (“At the time of
surgery, yes, I see a crooked spine that I derotate and
2. While Petitioner objected to informing the jury of the
difference between medical experimentation vis-à-vis informed
consent and experimentation in the patent law, that objection is
not at issue in the Petition.
3. Notably, the Petition cites the dissent over the record more
often than not. This is noteworthy because Chief Judge Prost’s
dissent contains as much analysis of the weight of the facts as legal
critique. For example, in disagreeing with the jury’s acceptance
that Dr. Barry needed to see his invention in at least three different
surgical contexts with follow-up, Chief Judge Prost states, “I am
unpersuaded.” Pet. App. 54a. Similarly, the dissent (Pet. App.
63a-67a) reweighs the evidence, crediting Petitioner’s spin on the
evidence as opposed to Dr. Barry’s, which is unwarranted given
the underlying appeal was for review of denial of judgment as a
matter of law. See, e.g., Anderson v. City of Bessemer City, N.C.,
470 U.S. 564, 573–74 (1985) (“If the district court’s account of the
evidence is plausible in light of the record viewed in its entirety,
the court of appeals may not reverse it even though convinced that
had it been sitting as the trier of fact, it would have weighed the
evidence differently.”).

12
straighten at the end of the surgery.”). The fact-finder was
thus free to accept the evidence as set forth by Petitioner
and find the invention was “ready for patenting” or that
Dr. Barry was not experimenting, but rather found the
opposite.
As explained above, Dr. Barry’s invention was
aimed at treating spinal disorders including scoliosis. As
claimed, “amelioration of aberrant spinal column deviation
condition” was given its plain and ordinary meaning by
the district court, which made several notable findings
regarding that term. First, that “[i]mprovement of an
aberrant spinal condition like scoliosis to a ‘near normal’
configuration provides some standard for measuring the
improvement and provides a [person of skill] reasonable
certainty regarding the scope of the invention.” C.A.J.A.
33. Second, that “it is impossible to predict the results
of a surgery or to guarantee perfect results.” Id (citing
Petitioner’s expert). Without objection, the jury was
instructed that if a construction for a term was not given,
its understanding to a skilled artisan would be its plain
and ordinary meaning. C.A.J.A. 145. Accordingly, the jury
heard the above testimony and argument concerning what
persons of skill in the art would view as acceptable practice
in surgical arts regarding evaluating the readiness of an
invention.
The jury was free to weigh Petitioner’s selectively
quoted record against testimony that Dr. Barry’s invention
of “amelioration of aberrant spinal column deviation
conditions” was treatment of a patient and not simply
straightening the spine. For example Dr. Barry explained
“when I treat a patient, you know, I consider treatment of
the entire patient, the whole patient; and treatment doesn’t

13
end with what happens at the end of a surgical procedure.”
C.A.J.A. 1191. This includes ensuring implants hold
considering the new forces applied by his inventive tools
(C.A.J.A. 1194) and ensuring successful implementation in
patients with varying conditions. C.A.J.A. 1192. Dr. Wallid
Yassir corroborated these points by explaining that,
while a surgeon may see correction by the conclusion of
surgery, overall determination of correction is not known
immediately. C.A.J.A. 2899-2901.
Based on the undisputed instructions and record,
the jury found Petitioner had not demonstrated by clear
and convincing evidence that the inventions were “ready
for patenting” or sold or publicly used before the critical
date. The Federal Circuit affirmed the denial of judgment
as a matter of law giving proper deference to the jury’s
findings on proper instruction.
REASONS TO DENY THE PETITION
I.

Petitioner Waived Its Current Challenges.

“ [A]ppel lat e cou r t s ord i na r i ly abst a i n f rom
entertaining issues that have not been raised and
preserved in the court of first instance.” Wood v. Milyard,
566 U.S. 463, 473 (2012). That practice applies with added
force when a party intentionally relinquishes or abandons
a waivable position at trial. United States v. Olano, 507
U.S. 725, 733 (1993). Waiver applies with full force to jury
instructions, which district courts enjoy wide latitude to
fashion and which appellate courts review for abuse of
discretion. See, e.g., i4i P’ship Ltd. v. Microsoft Corp., 598
F.3d 831, 841 (Fed. Cir. 2010), aff’d, 564 U.S. 91 (2011); 9C
Charles Alan Wright & Arthur R. Miller, Federal Practice

14
and Procedure: § 2558 (3d ed. 2008). An objection to a
jury charge “must be sufficiently specific to bring into
focus the precise nature of the alleged error.” Palmer v.
Hoffman, 318 U.S. 109, 119 (1943). On pain of forfeiture,
a party must show not only a specific, timely objection
to the supposedly erroneous instruction, but also that
“it requested alternative instructions that would have
remedied the error.” NTP, Inc. v. Research In Motion,
Ltd., 418 F.3d 1282, 1311-12 (Fed. Cir. 2005); see also
Microsoft, 564 U.S. at 111-12 (holding that Microsoft
waived a claim of instructional error by failing to propose
alternative instructions at district court). This Court
has stated “[t]here would be considerable prudential
objection to reversing a judgment because of instructions
that petitioner accepted, and indeed itself requested.”
Springfield, Mass. v. Kibbe, 480 U.S. 257, 259 (1987).
These well-established principles are fatal to
Petitioner’s certiorari request.
In the district court, Petitioner did not challenge the
instructions related to the “ready for patenting” standard
it now claims stand contrary to this Court’s decision in
Sprague and other circuits. Pet. 20 & n.7. Nor did it argue
Dr. Barry should have borne the burden of persuasion on
the question of experimental use. Id. On appeal, Petitioner
argued exclusively the jury’s verdict was not supported by
sufficient evidence, leading the court—after briefing and
oral argument—to affirm the district court’s judgment.
Given Petitioner’s waiver and lack of any decision
below, this case is a particularly inappropriate candidate
for certiorari. Cf. Microsoft Corp., 564 U.S. 91 (Microsoft
proposed the analysis at the root of its certiorari review at

15
trial and maintained its challenge throughout appeal). This
is “a Court a court of review, not of first view.” McLane
Co. v. EEOC, 137 S. Ct. 1159, 1170 (2017).
Petitioner contends otherwise, citing MedImmune,
Inc. v. Genentech, Inc., 549 U.S. 118 (2007). In MedImmune,
the Petitioner raised its issue before the Federal Circuit,
even if only in passing. Id. at 125. Petitioner here did not.
Petitioner did not object to, and in fact agreed to, the jury
instructions for “ready to patenting,” and subsequently
did not challenge the instructions on appeal. The notion
of applying a different test for “ready for patenting” was
only first introduced by the dissent, and was dismissed
by the majority in a footnote. Pet. App. 14a n.4. Similarly,
Petitioner did not object to the instructions regarding
“experimental use” despite now proposing it as a separate
question where the burden to show a use was experimental
is shifted to the patentee. Again, it was not until the
dissent suggested these changes to the law that Petitioner
seized on the arguments at the heart of its Petition.
Pa r rot i ng Ch ief Judge P rost ’s d i ssent i n a
petition for rehearing is not a timely advancement of
argument. Likewise, citing Robert Bosch, LLC v. Pylon
Manufacturing Corp., 719 F.3d 1305, 1316 (Fed. Cir. 2013)
(en banc), does not remedy waiver at every stage of the
case. At best, Bosch merely stands for the proposition
that en banc Federal Circuit decisions control over panel
decisions. It certainly does not suggest presenting an
argument for the first time after appellate review is
proper. Petitioner waived the questions presented and its
Petition should be denied.

16
II. This Case Does Not Warrant Supreme Court
Review.
The Petition’s two questions are unworthy of review.
First, contrary to Petitioner’s assertion, the Federal
Circuit did not misread the Court’s precedent regarding
the “ready for patenting” standard, and thus its decision
does not reflect “confusion” in its case law. Removed of
its rhetoric, the Petition improperly attempts to revisit
denial of judgment as a matter of law based on the bona
fide efforts of an inventor. It assumes Petitioner’s facts
are true and Dr. Barry’s facts insufficient even though
weighing that evidence is the province of the factfinder.
Second, the Federal Circuit’s decision correctly
applies the statutory requirement that the burden of
establishing invalidity always rests on the party asserting
it. See 35 U.S.C. § 282. In its second question on the burden
of persuasion, the Petition asks the Court to ignore the
statutory requirement. 4 That is improper.
A.

The Federal Circuit Properly Applied the
“Ready for Patenting” Standard Set Forth in
Pfaff’s to the On-Sale/Public Use Inquiry.

In Part 1 of the Petition regarding “ready for
patenting,” Petitioner argues against the weight of the
evidence regarding what the intended purpose of the
4. Petitioner argues the Federal Circuit has diverged from
the Court’s precedent through the decision in TP Laboratories,
Inc. v. Professional Positioners, Inc., 724 F.2d 965 (Fed. Cir.),
cert. denied, 469 U.S. 826 (1984). In that case, the Court denied
certiorari on this very issue.

17
invention is. In Part 2, Petitioner argues against the
Court’s decision in Pfaff, which makes clear that facts
regarding experimentation apply to both prongs of the
Pfaff analysis, to circumvent the Federal Circuit’s correct
analysis of the record regarding experimentation in
determining Dr. Barry’s invention was not “ready for
patenting.”
1.

The Federal Circuit Properly Considered
Evidence That Dr. Barry Was Working to
Determine His Invention Worked for Its
Intended Purpose.

To avoid the findings that Dr. Barry’s invention was not
“ready for patenting,” the Petition suggests the Federal
Circuit’s analysis added a requirement unsupported by
law. Petitioner urges that, despite this Court’s adoption
of reduction to practice as one way to show “ready for
patenting,” it is improper to consider whether the patentee
determined the invention works for its “intended purpose.”
Pet. 12. Petitioner ignores, however, the Court consistently
recognized the public use/on-sale bar inquiry is not
divorced from what the inventor believed he was working
toward, i.e., the invention’s “intended purpose.”
i.

The “reduction to practice” analysis
i nclud e s c o n sid e r at io n of t he
invention’s “intended purpose.”

“Ready for patenting” can be shown in at least two
ways: (1) proof of pre-critical date reduction to practice
and (2) proof of pre-critical date drawings or other
descriptions of the invention prepared by the inventor that
would enable a skilled artisan to practice the invention.

18
Pfaff, 525 U.S. at 67-68. This case involves only the first
type of proof and, by the time the Court decided Pfaff,
it was established law that whether an invention had
been reduced to practice involved considering whether
the inventor was convinced the invention worked for its
intended purpose.
Petitioner posits that assessing facts concerning the
intended purpose was improper and the test for ready
for patenting cannot concern itself with the intentions of
the inventor. Petitioner’s argument contradicts City of
Elizabeth v. American Nicholson Pavement Co., which
held that a use in experiment “pursued with a bona fide
intent of testing the qualities of the machine” is not a
public use. 97 U.S. 126, 135 (1877). Black’s Law Dictionary
defines “bona fide” as “in good faith; honestly, openly, and
sincerely . . . .” Bona Fide, Black’s Law Dictionary (11th
ed. 2019). City of Elizabeth plainly dictates assessing the
inventor’s intent to experiment, as buttressed or refuted
by surrounding facts bearing on its good faith.
Likewise, after City of Elizabeth, courts long
considered reduction to practice in relation to whether
the invention worked for its intended purpose under the
relevant conditions dictated by the art. As Learned Hand
wrote,
The doctrine to be drawn from the books, as
we read them, is this—and incidentally it is the
only doctrine that can find support in reason:
a test under service conditions is necessary in
those cases, and in those only, in which persons
qualified in the art would require such a test
before they were willing to manufacture and
sell the invention, as it stands.

19
Sinko Tool & Mfg. Co. v. Automatic Devices Corp., 157 F.
2d 974, 977 (2d Cir. 1946). Judge Hand was not alone in
recognizing these points. Numerous cases explained that,
when considering reduction to practice, “the inquiry is
not what kind of test was conducted, but whether the test
showed that the invention would work as intended in its
contemplated use.” E. Rotorcraft Corp. v. United States,
384 F.2d 429, 431 (Ct. Cl. 1967); see also Gaiser v. Linder,
253 F.2d 433, 436 (C.C.P.A. 1958) (inferring the necessary
attributes for a test from the real-world application);
Elmore v. Schmitt, 278 F.2d 510, 512-13 (C.C.P.A. 1960)
(“[d]etermining the sufficiency of laboratory tests to effect
a reduction to practice must necessarily depend on the
circumstances of the particular case under consideration
including, inter alia, the simplicity or complexity of the
device . . . as well as the conditions to which the device is
subjected when in practical use.”).
Pfaff itself recognized and reaffirmed these points.
Pfaff first noted that “[t]he law has long recognized the
distinction between inventions put to experimental use
and products sold commercially.” 525 U.S. at 64. Pfaff
then approvingly cited City of Elizabeth’s reasoning that
“‘delay . . . occasioned by a bona fide effort to bring [an]
invention to perfection, or to ascertain whether it will
answer the purpose intended,’” does not unduly extend
the monopoly period for “‘it is the interest of the public,
as well as [the inventor], that the invention should be
perfect and properly tested, before a patent is granted
for it.’” Id. (quoting City of Elizabeth, 97 U.S. at 137). In
light of these considerations, Pfaff squarely recognized “[t]
he patent laws therefore seek both to protect the public’s
right to retain knowledge already in the public domain and
the inventor’s right to control whether and when he may

20
patent his invention.” Id.; see also id. at 67 (concluding that
“[a]n inventor can both understand and control the timing
of the first commercial marketing of his invention” and
recognizing that “[t]he experimental use doctrine … has
not generated concerns about indefiniteness….”).
Pfaf f also, in reaching its holding, assessed
both inventor testimony and surrounding facts and
circumstances in finding the invention had been reduced
to practice in view of the relevant art. The Court noted
Pfaff “did not make and test a prototype of the new device”
before sale, citing testimony that the way he did business
was to go “from the drawing to the hard tooling” and
that he knew from the drawings that “it works.” Id. at 58
& n.3. Likewise, in affirming the “invention was ready
for patenting,” the Court highlighted “[t]he fact that the
manufacturer was able to produce the socket using his
detailed drawings.” Id. at 68.
T he Cou r t ’s precedent t hus repeat ed ly ha s
acknowledged the inquiry requires assessment of the
bona fide intentions and efforts of the inventor in light
of the relevant art. Otherwise, the balance Pfaff insists
upon—protection of public domain knowledge versus the
inventor’s control over experimentation—would be upset.
The inquiry requires assessing what the inventor knew or
was working to determine, and the inquiry into “bona fide”
intent and efforts, means that, in addition to the inventor’s
testimony, evidence of the surrounding circumstances is
relevant. EZ Dock v. Schafer Sys., Inc., 276 F.3d 1347, 1355
(Fed. Cir. 2002) (Linn, J., concurring).
Contrary to Petitioner’s contention, Corona Cord Tire
Co. v. Dovan Chemical Corp., 276 U.S. 358 (1928), confirms

21
this Court’s repeated declarations that the inventor’s effort
to confirm the invention works for its intended purpose
remains relevant. That case dealt with prior invention
and found the first inventor had reduced the invention to
practice for the purpose of establishing priority when the
claimed product—an effective accelerant—worked as an
effective accelerant and was known to do so by the alleged
prior inventor. Id. at 382 (noting the inventor knew of the
novel property because the evidence collectively “show[ed]
undoubtedly that he knew the existence of [D.P.G.] as an
accelerator”) (emphasis added). Express there is that the
priority inventor knew it worked.
Under this framework, the Federal Circuit properly
considered Dr. Barry’s testimony that he did not know his
invention worked for its intended purpose until performing
three surgeries, on three differing curve types, and
following up on all three patients when assessing whether
his invention was “ready for patenting.” See supra at I.A
The record also included evidence corroborating the three
procedures and follow-ups were experimental. See supra
at I.B.
ii.

The record demonstrates Dr. Barry
was working to determine if his
invention works for its “intended
purpose.”

Petitioner alternatively attempts to change the
inquiry to require “intended purpose” be claimed or
expressly stated in the patent. Pet. 12. That requirement
has never existed.
In City of Elizabeth, the Court found the inventor’s
use was not public or a sale despite being in the open as a

22
toll road. The record showed the inventor was testing for
durability, likelihood of decay, whether people liked the
pavement, and use by “rich and poor.” 97 U.S. at 133-34.
The Court held the use was experimental and reached that
conclusion despite the claims not reciting a single word
about use, durability, and long-term resistance to decay.
Id. at 128 (reproducing claims). This makes sense as the
Court stated “bring his invention to perfection,” not bring
his claimed invention to perfection. Thus, Petitioner’s
suggestion the patents must recite in hac verba the
intended purpose ignores precedent.
Rather than requiring legal formalism, City of
Elizabeth simply assessed the logical relation between
the invention—a road paving system—and the character
of the experiment—assessing its durability. The Federal
Circuit has similarly and appropriately inferred intended
purpose on numerous occasions. See Manville Sales Corp.
v. Paramount Sys., Inc., 917 F.2d 544, 550-551 (Fed.
Cir. 1990) (“When durability in an outdoor environment
is inherent to the purpose of an invention, then further
testing to determine the invention’s ability to serve
that purpose will not subject the invention to a section
102(b) bar.”) (emphasis added); see also Polara Eng’g
Inc. v. Campbell Co., 894 F.3d 1339, 1349 (Fed. Cir. 2018)
(“The jury heard testimony that Polera needed to test
the claimed invention at actual crosswalks of different
sizes and configurations . . . to ensure that the invention
would work for its intended purpose. The jury also heard
testimony underscoring the importance of such testing of
the invention as ‘a life safety device.’”) (emphasis added);
see also Honeywell Int’l Inc. v. Universal Avionics Sys.
Corp., 488 F.3d 982, 996-97 (Fed. Cir. 2007) (“to test
its new system with human pilots in a genuine cockpit
setting.”) (emphasis added).

23
As in City of Elizabeth, and later applications of that
case, here, the Federal Circuit properly considered the
evidence, including the patent, in reviewing the record
of Dr. Barry’s intended purpose for his invention. And
the record evidence supported that three surgeries,
on three different conditions, with follow-up for each
were conducted for Dr. Barry to determine whether his
invention worked as intended.
Even as claimed, the invention is a novel method of
treating spinal disorders through medical treatment—
amelioration of aberrant spinal column deviation
conditions.5 See supra at I.A. At trial, that phrase received,
without challenge, its plain and ordinary meaning to a
person of skill. See supra I.C. The jury heard the invention
was treatment of patients, not simply correcting scoliotic
curves, which includes the common-sense need for patient
follow-up to ensure the treatment took. Supra, at I.A.
Likewise, the jury heard evidence regarding a
limitation in claim 1 of the ‘358 patent specifying the
inventive method would “secure said vertebrae in
their respective and relative positions and orientations
. . . .” C.A.J.A. 330. More specifically, the jury heard a
minimum of three months of follow-up was necessary for
Dr. Barry to determine whether the method used during
the procedures worked to “secure said vertebrae in their
5. Petitioner contends the claim reads “an aberrant spinal
column deviation condition” in the singular, but that argument
contradicts established law. See KCJ Corp. v. Kinetic Concepts,
Inc., 223 F.3d 1351, 1356 (Fed. Cir. 2000) (“This court has
repeatedly emphasized that an indefinite article ‘a’ or ‘an’ in
patent parlance carries the meaning of ‘one or more’ in open-ended
claims . . . .”).

24
respective and relative positions and orientations” for each
of the three patients with different curve types. Supra, at
I.A. This evidence also supports determining the purpose
of the invention was the treatment of patients, not simply
correction during surgery.
But even if the claim language alone was insufficient,
as Petitioner suggests, the intended purpose here can
be inferred. It is undisputed the claims are to a surgical
method of treating spinal disorders and Dr. Barry
intended to develop a surgical technique to treat various
spinal disorders, work in various real-world situations,
and hold up over time. Supra, at I.A. It is also precisely
the kind of evidence used for the analysis of whether an
invention works as intended routinely upheld based on
jury findings like those at present.
The jury heard Dr. Barry needed to make sure his
invention worked in various types of scoliosis conditions.
C.A.J.A. 1192-93. Dr. Barry needed to make sure it worked
in real-world situations by performing more than one or
two surgeries. C.A.J.A. 1193-95. And finally, Dr. Barry
needed to make sure that the new forces being applied
from his inventive technique permitted the correction to
take hold and the implants to remain in the proper place.
C.A.J.A. 1195-96. This testimony was unrebutted. And
further evidence supported that Dr. Barry was engaged in
experimentation to determine if his invention would work
as intended. Supra at I.A and I.B. When all is considered,
not simply Petitioner’s selective recitation of the evidence,
a reasonable fact-finder could find in Dr. Barry’s favor. TP
Labs v. Prof. Positioners, Inc., 724 F.2d 965, 973 (Fed.
Cir. 1984).

25
The Petition and Chief Judge Prost’s dissent merely
argue for judgment as a matter of law based on reweighing
the record. There has never been, nor should there
be, a prescribed method to the process of invention or
a requirement that testing rationale be spelled out in
the specification or claims. Rather, the factual nature
of determining whether an inventor possessed a bona
fide intent to perfect or confirm the invention works as
intended is properly an issue resolved by the factfinder.
That factfinders can resolve issues of credibility and
intent and analyze those issues under a legal framework
is common to our laws. Anderson v. City of Bessemer City,
N.C., 470 U.S. 564, 574 (1985).
Here, the record supports finding Dr. Barry’s
invention was not “ready for patenting.” As such, the
inquiry ends because it would not matter if the 2003
surgeries were experimental if the invention was not
“ready for patenting.”
2.

The Federal Circuit Properly Recognized
that Facts Suppor ting “ R ea dy for
Pa t e nt i n g ” A r e A l s o R ele v a nt t o
“Experimental Use.”

For Petitioner to succeed in overturning the verdict, it
must make two separate but equally improper revisions to
the application of the relevant bars. First, it must re-write
Pfaff to ignore that “reduction to practice” is predicated
on the inventor knowing the invention works as intended—
the “ready for patenting” prong. Such analysis will often
include the same facts which underpin the separate Pfaff
question of whether an allegedly barring activity was
done for experimental purposes—the sale or use prong.

26
Second, it must extricate analysis of experimentation from
the question of whether an activity was a barring sale or
use and make such an analysis a separate question with
burdens of persuasion contrary to the Patent Act.
Neither of these revisions to the Section 102(b) bars
are supported by precedent.
As the Court recognized in Pfaff, the questions of
whether a sale occurred, whether it was experimental and
thus not a sale, and whether the invention was ready for
patenting are intertwined:
[T]he product must be the subject of a
commercial offer for sale. An inventor can both
understand and control the timing of the first
commercial marketing of his invention. The
experimental use doctrine, for example, has
not generated concerns about indefiniteness,
and we perceive no reason why unmanageable
uncertainty should attend a rule that measures
the application of the on-sale bar of § 102(b)
against the date when an invention that is ready
for patenting is first marketed commercially.
525 U.S. at 67 (footnoted omitted).
The Federal Circuit likewise has acknowledged the
interplay:
[T]he Supreme Court and this court apply the
experimental use negation without conflict
with the ‘ready for patenting’ prong of the
new on-sale bar test. Indeed . . . the Supreme

27
Court acknowledged that a litigant may
show readiness for patenting with evidence
of reduction to practice. Like evidence of
experimentation sufficient to negate a bar,
reduction to practice involves proof that an
invention will work for its intended purpose.
Even beyond this overlap of the experimental
use negation and the ready for patenting
standard , however, the Supreme Cour t
explicitly preserved proof of experimentation
as a negation of statutory bars.
EZ Dock, 276 F.3d at 1352 (emphasis added) (citation
omitted).
Thus, the question of whether an invention worked
for the inventors’ intended purpose, as articulated in
City of Elizabeth, applies to both the question of whether
an invention was publicly used or sold, as opposed to
being used experimentally, and the question of ready
for patenting. Chief Judge Prost acknowledged this in
her concurrence in Atlanta Attachment Co. v. Leggett &
Platt, Inc., 516 F.3d 1351, 1370 (Fed. Cir. 2008) (“While
the experimental use doctrine, as such, is not pertinent to
the second Pfaff prong [ready for patenting], an inventor’s
experimentation may have relevance to that prong”). See
also supra at II.A.1.i.
Interplay between experimental use and reduction
to practice makes sense given the many holdings,
unchallenged by Petitioner, that there is no experimental
use once the invention has been reduced to practice. See,
e.g., New Railhead Mfg. LLC v. Vermeer Mfg Co., 298 F.3d
1290, 1299 (Fed. Cir. 2002); RCA Corp. v. Data Gen. Corp.,

28
887 F.2d 1056, 1061 (Fed. Cir. 1989); Pennwalt Corp. v.
Akzona Inc., 740 F.2d 1573, 1581 (Fed. Cir. 1984). The
question of experimental use is simply part and parcel of
whether an activity is a sale or public use. Clock Springs
LP v. Wrapmaster, Inc., 560 F.3d 1317, 1326 (Fed. Cir.
2009); EZ Dock, 276 F.3d at 1357-58 (Linn, J., concurring).
The Petition suggests the statutory bar ignore the
Court’s prior decisions and ask only whether at the time
of the alleged barring activity a person of ordinary skill in
the art “could have” obtained a patent. Pet. 17-18. Under
the Petition’s approach, a challenger would put forward
evidence of an allegedly barring sale or public use and
then simply ask whether a person of ordinary skill could
have written a patent application.
Petitioner’s approach effectively overrules City of
Elizabeth and disposes of the balance established there
and reaffirmed in Pfaff.
In City of Elizabeth, the patent specified two ways of
making pavement, one of which was “to set square blocks
on end arranged like a checker-board” with small spaces
in between for gravel or the like over which tar or pitch
was placed. 97 U.S. at 128. The claims encompassed both
this method and an alternative. Id. Before experimentation
began, the inventor “filed a caveat in the Patent Office
in August, 1847, in which the checker-board pavement
is fully described” and experiments later commenced in
1848 involving both kinds of pavement. Id. at 129. A caveat
was similar to a patent application with a description
of an invention and drawings, but without claims or
examination for patentability. Patent Act of 1836, ch.
357, 5 Stat. 117 (repealed 1870). Stated simply, the caveat

29
demonstrated the invention could have been described in
a patent application even before the experiments began;
the inventor could have written his claims—which did not
recite durability properties—long before observing its
real-world performance.
But far from finding the patent barred, this Court
instead found “[i]t is perfectly clear from the evidence
that he did not intend to abandon his right to a patent.
He had filed a caveat in August, 1847, and he constructed
the pavement in question by way of experiment, for the
purpose of testing its qualities.” 97 U.S. at 133. The Court
instead focused on the bona fide intent of the inventor
and did so with a particular purpose in mind—balancing
the inventor’s and public interest in seeing inventions
perfected and properly tested, versus concerns about
undue patent term extension. Id. at 137.
Petitioner proposes to reverse City of Elizabeth and
upset that balance, as reaffirmed in Pfaff. Petitioner’s
focus on whether a patent could have been written or
whether a process is successfully performed (Pet. 17-18)
renders bona fide experimentation a dead-letter. Indeed,
Petitioner’s proposal is similar to, but more aggressive
in upsetting the balance this Court has achieved, than
proposed in Pfaff. There, the Solicitor General proposed
barring a patent “‘if the sale or offer in question embodies
the invention for which a patent is later sought,’” and the
sale or offer is “‘primarily for commercial purposes.’” 525
U.S. at 68 n.14 (citation omitted). This proposal preserved
some inquiry into the commercial nature of the sale, yet
the Court rejected it because “the possibility of additional
development after the offer for sale in those circumstances
counsels against” such a rule. Id. Under Petitioner’s

30
proposal, post-sale experimentation is likewise rendered
irrelevant and no inquiry into the commercial versus
experimental nature of the sale is made.
Petitioner’s attempt to remove intended purpose from
both whether an invention was “ready for patenting” and
the factually related question of experimental use finds
no basis in this Court’s carefully crafted and balanced
decisions. Petitioner’s effort destroys the balance the
Court set allowing inventors room to experiment and
perfect their inventions in real world conditions to the
benefit of both the inventor and the public.
B. The Statutory Burden of Persuasion on
Invalidity Based on Sale or Public Use,
Which the Court Has Confirmed Includes the
Experimental Use Inquiry, Must Control.
At the outset, the burden-of-proof question is worth
considering only if the record fails to establish the 2003
surgeries were performed for Dr. Barry to determine if his
invention worked for its intended purpose, thus showing
his invention was not ready for patenting. Pfaff, 525 U.S.
at 67. Petitioner’s objective is clear. By making “ready for
patenting” unrelated to determining the invention worked
as the inventor intended, and by making experimental
use a separate question from whether the activity was a
barring sale or use, Petitioner seeks to avoid its statutory
burden of persuasion to prove invalidity under Pfaff.
However, Petitioner offers no compelling reason to
support its assertion the Court should ignore the statutory
placement of the burden of establishing invalidity always
on the party asserting it. The Petition argues the Federal

31
Circuit strayed from this Court’s decision in Smith &
Griggs Manufacturing Co. v. Sprague, 123 U.S. 249
(1887). Pet. 20. But as explained below, Petitioner’s
argument mischaracterizes law and precedent.
In TP Laboratories, the Federal Circuit addressed
this issue in relation to whether an alleged use was an
invalidating public use:
Under this analysis, it is incorrect to impose
on the patent owner, as the trial court in this
case did, the burden of proving that a “public
use” was “experimental.” These are not two
separable issues. It is incorrect to ask: “Was it
a public use?” and then, “Was it experimental?”
Rather, the court is faced with a single issue:
Was it public use under § 102(b)?
724 F.2d at 971 (emphasis added). This is precisely
what the Court in Pfaff suggested when it made sure
experimental use was still part of the public use inquiry.
See supra, at II.A.1. Experimental use is not a separate
question from public use or on-sale bar, a point even Chief
Judge Prost has acknowledged. Atlanta Attachment, 516
F.3d at 1370 (concurring).
As part of that formulation—entirely consistent with
the Court’s pronouncement of the two-part test in Pfaff—
the Federal Circuit addressed the argument that the
Court’s Sprague decision compelled placing the ultimate
burden of persuasion on the patent owner. The Federal
Circuit explained:
[T]he [trial] court should have looked at all
the evidence put forth by both parties and

32
should have decided whether the entirety of
the evidence let to the conclusion that there
had been “public use.” This does not mean, of
course, that the challenger has the burden of
proving that the use was not experimental. Nor
does it mean that the patent owner is relieved of
explanation. It means that if a prima facie case
is made of public use, the patent owner must
be able to point to or must come forward with
convincing evidence to counter that showing.
TP Labs., 724 F.2d at 971 (footnoted omitted).
The Federal Circuit specifically explained the Court’s
decision in Sprague must be read in light of the subsequent
statutory codification placing the burden of proving
invalidity on the challenger:
We do not read [Sprague] as contrary to [the
previous block quote], as urged by appellees.
However, assuming that in [Sprague], the
Court intended to impose the ultimate burden
of persuasion on the patent holder rather
than merely the burden of going forward with
countering evidence, we do not believe that
view is tenable in the face of the subsequently
enacted statutory presumption.
Id. at 971 n.3 (further citing and quoting Austin Mach.
Co. v. Buckeye Traction Ditcher Co., 13 F. 2d 697, 700
(6th Cir. 1926)).
The statutory codification of the burden of proof is at
35 U.S.C. § 282. This Court has affirmed that the burden

33
laid out there controls and is not adjusted based on factual
nuances specific to the type of validity challenge. See
Microsoft, 564 U.S. at 108-09 (holding that the burden of
persuasion is not lower just because specific prior art was
not before the examiner). Further, the Court has been
aware of the Federal Circuit’s analysis in TP Laboratories
since issuance. See n.4, supra. Similarly, the Court in
Pfaff cited the same publication from which most of the
Petition’s analysis comes from.6 Thus, Petitioner’s attempt
to format the inquiry under § 102(b) as separate from
experimental use cannot stand.
Petitioner also argues the Federal Circuit’s view
diverges from that of other circuits. Pet. 21-22. But
the majority of the cases cited by Petitioner pre-date
the statutory placement of the ultimate burden on the
challenger, and the remainder do not come from the
Federal Circuit, which has been the nationwide appellate
court for patent matters since 1982.
Petitioner argues the Federal Circuit’s predecessor
court—Court of Customs and Patent Appeals—explicitly
followed Sprague. Pet. 22. But, in the case it cites, the
burden of proof was not at issue. In In re Dybel, 524 F.2d
1393 (C.C.P.A. 1975), the court addressed an ex parte
examination where a third-party petitioned the Patent
6. Compare Pfaff, 525 U.S. 67, n.15 with Pet. 25, n.8. The
Court cited the Rocklidge paper as recognition that experimental
use can make a sale not subject to the statutory bar even though
Rocklidge argued the burden of persuasion for experimental use
should be borne by the patentee. William C. Rocklidge & Stephen
C. Jensen, Common Sense, Simplicity and Experimental Use
Negation of the Public Use and On Sale Bars to Patentability,
29 J. Marshall L. Rev. 1, 45-46 (1995).

34
Office to consider public use. Id. at 1396. Thus, to the
extent the Court of Customs and Patent Appeals held that
it was a separate inquiry—“once public use or sale before
the critical date has been established, the burden is on
the patentee to prove that such use was experimental”—
it has been overruled by TP Laboratories and, more
importantly, the Court in Pfaff.
Petitioner also asserts the Federal Circuit’s approach
in TP Laboratories is contrary to the Court’s holding
where a party carries both a burden of production and
persuasion to qualify for an exception from a statutory
prohibition. Pet. 24. But Petitioner ignores that, in
those cases, the exception to the statutory prohibition is
provided by statute and must therefore be established
separately. See Javierre v. Cent. Altagracia, Inc., 217
U.S. 502, 507-508 (1910); see also United States v. First
City Nat’l Bank of Hous., 386 U.S. 361, 365-66 (1967)
(analyzing the statutory exception within the Clayton
Act that created the defense to anticompetitive mergers).
That is not the case here. Rather, whether an allegedly
invalidating activity is a sale or public use, and not an
experimental one, is better analogized to cases where
there are shifting burdens of production following a
prima facie showing. For example, in cases of unlawful
employment practices under Title VII of the Civil Rights
Act, the Court has held that meeting the prima facie case
of showing discriminatory conduct creates a presumption
of unlawful conduct and thus “places on the defendant the
burden of producing an explanation to rebut the prima
facie case—i.e., the burden of ‘producing evidence’ that the
adverse employment actions were taken ‘for a legitimate,
nondiscriminatory reason.’” St. Mary’s Honor Center v.

35
Hicks, 509 U.S. 499, 506-507 (1993) (quoting Tex. Dep’t of
Cmty Affairs v. Burdine, 450 U.S. 248, 254 (1981)).
In St. Mary’s, Justice Scalia summarized that where
the ultimate burden lies with a party but facts potentially
negating the finding lie with the opposing party, this kind
of burden shift is both consistent with the Federal Rules
of Evidence and not uncommon to the law. Id. at 507. The
Court explained that “[t]he factfinder’s disbelief of the
reasons put forward by the defendant (particularly if
disbelief is accompanied by suspicion of mendacity) may,
together with the elements of the prima facie case, suffice
to show intentional discrimination.” Id. at 511. Thus, there
is no need for a separate question regarding experimental
use, which will consider the evidence of whether the
inventor intended to perfect his invention, just as there
is no need for a separate question of whether there was a
nondiscriminatory reason for a Title VII plaintiff to have
been passed over.
Thus, Petitioner’s attempt to extract the facts of
experimentation from the Pfaff test asking whether a
barring activity occurred and create a separate question
such to shift the burden of persuasion to the patent owner
is unfounded. Moreover, Petitioner’s argument that under
such a rubric, it would be entitled to judgment as a matter
of law is incorrect. Petitioner supplants the factual record
before the jury, and the inferences drawn from those facts,
with its own theory of the facts. Pet. 24-27. At most, the
remedy would be remand for trial consistent with a never
before seen articulation of the experimental use doctrine.

36
CONCLUSION
The petition should be denied.
Respectfully submitted,
Mitchell G. Stockwell
D. Clay Holloway
Dario A. Machleidt
Courtney S. Dabbiere
Kilpatrick Townsend
& Stockton LLP
1100 Peachtree Street, NE,
Suite 2800
Atlanta, Georgia 30309
(404) 815-6500

A dam H. Charnes
Counsel of Record
Kilpatrick Townsend
& Stockton LLP
2001 Ross Avenue,
Suite 4400
Dallas, Texas 75201
(214) 922-7100
acharnes@kilpatricktownsend.com

Counsel for Respondent
November 26, 2019

